 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


 OKLAHOMA IMPROPERLY CLAIMED
FEDERAL REIMBURSEMENT FOR MOST
  REVIEWED MEDICAID INPATIENT
PSYCHIATRIC HOSPITAL SERVICE AND
DISPROPORTIONATE SHARE HOSPITAL
PAYMENTS TO CHILDREN’S RECOVERY
             CENTER

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                        March 2013
                                                       A-05-12-00052
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Oklahoma Medicaid Program

The Oklahoma Health Care Authority (the State agency) administers the Oklahoma Medicaid
program according to the CMS-approved State plan. The State agency makes Medicaid
payments to eligible hospitals and claims Federal reimbursement for a portion of such payments.
Children’s Recovery Center of Oklahoma (CRCO), a State-owned institution for mental diseases
and psychiatric hospital, provides inpatient psychiatric services primarily to adolescents and
children with serious emotional disturbances. During the audit period, January 1, 2006, through
December 31, 2010, CRCO participated in the Medicaid, but not the Medicare, program.

Federal Requirements for Inpatient Psychiatric Hospital Services

For States to claim Federal reimbursement for their Medicaid inpatient psychiatric service and
disproportionate share hospital (DSH) payments to a psychiatric hospital, the hospital’s inpatient
services must meet the Federal definition of such services. This definition requires the provider
to demonstrate compliance with the basic Medicare Conditions of Participation (CoP) generally
applicable to all hospitals and two special Medicare CoP applicable to psychiatric hospitals. The
basic Medicare CoP address issues such as licensing, quality of care, safety, patient rights, self
assessment and performance improvement, and service availability. The special Medicare CoP
specify staffing and medical record requirements.

A psychiatric hospital must undergo review by qualified health care professionals to demonstrate
compliance with the basic and special Medicare CoP. Such review provides CMS with
reasonable assurance that participating facilities are improving the health and protecting the
safety of Medicaid beneficiaries. For periods that a psychiatric hospital does not demonstrate
compliance with the basic and special Medicare CoP, all Medicaid inpatient psychiatric service
and DSH payments received from the State agency are ineligible for Federal reimbursement.

CMS made a technical error when it issued Medicare transplant center CoP regulations in 2007.
Effective June 28, 2007, it inadvertently omitted certain Medicare psychiatric hospital CoP
regulations that were relevant to this audit. CMS formally reinstated the omitted regulations



                                                i
effective October 26, 2007. Despite the omission, CMS’s implementing guidance remained in
effect from June 28 through October 25, 2007 (the regulatory gap period).

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal reimbursement for
Medicaid inpatient psychiatric service and DSH payments made to CRCO in accordance with
certain Federal requirements for inpatient psychiatric hospital services.

SUMMARY OF FINDING

Most State agency claims for Federal reimbursement for Medicaid inpatient psychiatric service
and DSH payments made to CRCO were not in accordance with Federal requirements for
inpatient psychiatric hospital services because CRCO did not demonstrate compliance with the
basic or special Medicare CoP from January 1, 2006, through December 31, 2010. Therefore, of
the $6,675,543 claimed during that period, the amount of $6,209,502 that was for claims with
dates of service outside the regulatory gap period was not allowable. We have not provided an
opinion on the allowability of State agency claims for the remaining $466,041, which was for
claims with dates of service during the regulatory gap period. The State agency claimed the
$6,675,543 because it believed that CRCO had met all requirements to be eligible for Medicaid
inpatient psychiatric service and DSH payments.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $6,209,502 to the Federal Government for its share of Medicaid inpatient
       psychiatric service and DSH payments made to CRCO for claims with dates of service
       outside the regulatory gap period,

   •   work with CMS to determine whether the State agency should refund an additional
       $466,041 to the Federal Government for its share of payments made to CRCO for claims
       with dates of service during the regulatory gap period,

   •   identify and refund the Federal share of any additional payments made to CRCO for
       claims with dates of service after the audit period if neither the State agency nor CRCO
       can demonstrate the hospital’s compliance with Federal requirements for inpatient
       psychiatric hospital services, and

   •   ensure that Federal reimbursement for Medicaid inpatient psychiatric service and DSH
       payments to psychiatric hospitals is claimed only if those hospitals can demonstrate
       compliance with the basic and special Medicare CoP.




                                               ii
STATE AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency concurred with three of our four
recommendations. The State agency agreed with our first recommendation—it will work with
CMS to refund $6,209,502 for the Federal share of Medicaid inpatient psychiatric services and
DSH payments made to CRCO for claims with dates of service outside the regulatory gap period.
The State agency did not concur with our second recommendation that it should be responsible
for refunding payments with dates of service during the regulatory gap period. As to our third
recommendation, the State agency identified an additional $292,811 in DSH payments that were
made after the audit period; it will work with CMS to make an adjustment for this overpayment.
The State agency also agreed with our fourth recommendation—it has implemented procedures
within its provider enrollment division to ensure that all hospitals have the certifications required
for Medicaid reimbursement.

We maintain our second recommendation that the State agency should present its position to and
work with CMS to determine whether it should refund payments made to CRCO for claims with
dates of service during the regulatory gap period.




                                                 iii
                                                    TABLE OF CONTENTS

                                                                                                                                            Page

INTRODUCTION......................................................................................................................... 1

     BACKGROUND ...................................................................................................................... 1
       Medicaid Program ............................................................................................................... 1
       Oklahoma Medicaid Program ............................................................................................. 1
       Federal Requirements for Inpatient Psychiatric Hospital Services..................................... 1

     OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................... 3
       Objective ............................................................................................................................. 3
       Scope ................................................................................................................................... 3
       Methodology ....................................................................................................................... 3

FINDING AND RECOMMENDATIONS .................................................................................. 4

     FEDERAL REQUIREMENTS ................................................................................................. 4

     CHILDREN’S RECOVERY CENTER OF OKLAHOMA DID NOT DEMONSTRATE
     COMPLIANCE WITH MEDICARE CONDITIONS OF PARTICIPATION DURING THE
     AUDIT PERIOD ....................................................................................................................... 4

     RECOMMENDATIONS .......................................................................................................... 5

     STATE AGENCY COMMENTS……………………………………………………………………….................6

     OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................... 6

APPENDIX

     STATE AGENCY COMMENTS




                                                                       iv
                                              INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Oklahoma Medicaid Program

The Oklahoma Health Care Authority (the State agency) administers the Oklahoma Medicaid
program according to the CMS-approved State plan. The State agency makes Medicaid
payments to eligible hospitals and claims Federal reimbursement for a portion of such payments.
Children’s Recovery Center of Oklahoma (CRCO), a State-owned institution for mental diseases
(IMD) and psychiatric hospital, provides inpatient psychiatric services primarily to adolescents
and children with serious emotional disturbances. During the audit period, January 1, 2006,
through December 31, 2010, CRCO participated in the Medicaid, but not the Medicare, program.

Federal Requirements for Inpatient Psychiatric Hospital Services

For States to claim Federal reimbursement for their Medicaid inpatient psychiatric service and
disproportionate share hospital (DSH) 1 payments to a psychiatric hospital, the hospital’s
inpatient services must meet the Federal definition of such services. This definition requires the
provider to demonstrate compliance with the basic Medicare Conditions of Participation (CoP)
generally applicable to all hospitals and two special Medicare CoP applicable to psychiatric
hospitals.

Medicaid Payments

Pursuant to section 1903(a)(1) of the Act, States can claim Federal reimbursement for a portion
of their Medicaid medical assistance and DSH payments. For patients in IMDs, a category that
generally includes psychiatric hospitals, medical assistance includes inpatient hospital services
for individuals aged 65 or older but excludes care or services for younger individuals except for
inpatient psychiatric hospital services for individuals under age 21 (section 1905(a) of the Act). 2
1
 Pursuant to section 1923 of the Act, certain hospitals are eligible for special payments, known as DSH payments.
To receive DSH payments, hospitals must serve a disproportionately large share of low-income and/or uninsured
patients and meet other Federal and State requirements. The payments compensate the hospitals for their
uncompensated costs of providing hospital services to such patients.
2
 Pursuant to 42 CFR § 441.151(a)(3), medical assistance also includes necessary inpatient psychiatric hospital
services for individuals aged 21 if they were receiving such services immediately before reaching age 21.

                                                         1
In addition, if a certain percentage of a psychiatric hospital’s inpatient days are attributable to
Medicaid-eligible patients, the hospital may be entitled to DSH payments pursuant to section
1923 of the Act.

Definition of Medicaid Inpatient Psychiatric Hospital Services

The Federal definition of Medicaid inpatient psychiatric hospital services requires the hospitals
providing such services to comply with Medicare CoP, including two special Medicare CoP.
The basic Medicare CoP address issues such as licensing, quality of care, safety, patient rights,
self assessment and performance improvement, and service availability (42 CFR §§ 482.1–
482.23 and 42 CFR §§ 482.25–482.57). The special Medicare CoP specify staffing and medical
record requirements (42 CFR §§ 482.61 and 482.62).

In 72 Fed. Reg. 60787 (Oct. 26, 2007), CMS corrected a technical error that it had made when it
issued Medicare transplant center CoP regulations that became effective June 28, 2007. When it
amended 42 CFR part 482, subpart E, in 72 Fed. Reg. 15198 (Mar. 30, 2007), CMS inadvertently
omitted 42 CFR §§ 482.60–482.62, which are Medicare psychiatric hospital CoP regulations
relevant to this audit. The correction reinstated the omitted regulations effective
October 26, 2007. Despite the omission, CMS’s implementing guidance (e.g., manuals)
remained in effect from June 28 through October 25, 2007 (the regulatory gap period).

Demonstrating Compliance With Medicare Conditions of Participation

To demonstrate compliance with the basic and special Medicare CoP, a psychiatric hospital must
undergo review by qualified health care professionals. Medicare-participating psychiatric
hospitals are generally deemed to meet both the basic and special Medicare CoP for Medicaid
purposes (42 CFR § 488.5(b)). During our audit period, psychiatric hospitals that did not
participate in Medicare could generally demonstrate compliance with the basic Medicare CoP 3
by being accredited as a hospital by CMS-approved organizations, such as the Joint
Commission.4 However, during that time, such accreditation did not demonstrate compliance
with the special Medicare CoP (42 CFR § 488.5(a)). 5 According to the CMS State Operations
Manual, section 2718A, psychiatric hospitals had to be specially surveyed by qualified
psychiatric health care professionals to demonstrate compliance with the special Medicare CoP.
Accreditation or survey by qualified health care professionals provides CMS with reasonable
assurance that participating facilities are improving the health and protecting the safety of
Medicaid beneficiaries.




3
  One exception is the utilization review requirement in 42 CFR § 482.30; however, compliance with the utilization
review requirement was outside the scope of our audit.
4
 The Joint Commission was previously known as the Joint Commission on Accreditation of Healthcare
Organizations and is so referenced in 42 CFR § 488.5(a).
5
 After the audit period (January 1, 2006, through December 31, 2010), CMS granted the Joint Commission deeming
authority with respect to the two special Medicare CoP (76 Fed. Reg. 10598 (Feb. 25, 2011)).

                                                         2
For periods that a psychiatric hospital does not demonstrate compliance with the basic and
special Medicare CoP, all Medicaid inpatient psychiatric service and DSH payments received
from the State agency are ineligible for Federal reimbursement.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal reimbursement for
Medicaid inpatient psychiatric service and DSH payments made to CRCO in accordance with
certain Federal requirements for inpatient psychiatric hospital services.

Scope

We reviewed CRCO’s compliance for the period of January 1, 2006, through
December 31, 2010, with certain Federal requirements for inpatient psychiatric hospital services.
We identified $6,675,543 in Federal reimbursement for Medicaid inpatient psychiatric service
and DSH payments made to CRCO for claims with dates of service during the audit period. We
limited our review of the State agency’s internal controls to those significant to the objective of
our audit.

We performed our fieldwork from March through August 2012.

Methodology

To accomplish our objective, we:

   •    examined Federal and State Medicaid requirements for inpatient psychiatric hospital
        services,

   •    identified periods for which neither the State agency nor CRCO could demonstrate
        CRCO’s compliance with certain Federal requirements for inpatient psychiatric hospital
        services,

   •    held discussions with officials of the State agency and reviewed its Medicaid payment
        records, and

   •    determined the amount of Federal reimbursement for Medicaid inpatient psychiatric
        service and DSH payments made to CRCO for claims with dates of service during
        periods when it did not demonstrate compliance.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                                 3
                           FINDING AND RECOMMENDATIONS

Most State agency claims for Federal reimbursement for Medicaid inpatient psychiatric service
and DSH payments made to CRCO were not in accordance with Federal requirements for
inpatient psychiatric hospital services because CRCO did not demonstrate compliance with the
basic or special Medicare CoP from January 1, 2006, through December 31, 2010. Therefore, of
the $6,675,543 claimed during that period, the amount of $6,209,502 that was for claims with
dates of service outside the regulatory gap period was not allowable. We have not provided an
opinion on the allowability of State agency claims for the remaining $466,041, which was for
claims with dates of service during the regulatory gap period. The State agency claimed the
$6,675,543 because it believed that CRCO had met all requirements to be eligible for Medicaid
inpatient psychiatric service and DSH payments.

FEDERAL REQUIREMENTS

Pursuant to sections 1905(h)(1) and 1861(f) of the Act, if inpatient psychiatric services furnished
to individuals under age 21 are provided in a psychiatric hospital, the psychiatric hospital must
meet the basic and special Medicare CoP. Regulations in 42 CFR § 482.60 implement the
requirements in 1861(f) and mandate that such psychiatric hospitals meet the basic Medicare
CoP (42 CFR §§ 482.1–482.23 and 42 CFR §§ 482.25–482.57) applicable to all hospitals and
two special Medicare CoP applicable to psychiatric hospitals (42 CFR §§ 482.61 and 482.62).
Psychiatric hospitals that provide Medicaid inpatient psychiatric services must meet the same
Medicare CoP for their DSH payments to be eligible for Federal reimbursement.

The Medicare CoP for psychiatric hospitals are minimum standards that provide a basis for
improving quality of care and protecting the health and safety of Medicaid beneficiaries. The
basic Medicare CoP address issues such as licensing, quality of care, safety, patient rights, self
assessment and performance improvement, and service availability (42 CFR §§ 482.1–482.23
and 42 CFR §§ 482.25–482.57). The special staffing Medicare CoP require that psychiatric
hospitals “have adequate numbers of qualified professional and supportive staff to evaluate
patients, formulate written, individualized comprehensive treatment plans, provide active
treatment measures, and engage in discharge planning” (42 CFR § 482.62). The special medical
record Medicare CoP require that “medical records maintained by a psychiatric hospital …
permit determination of the degree and intensity of the treatment provided to individuals who are
furnished services in the institution” (42 CFR § 482.61).

CHILDREN’S RECOVERY CENTER OF OKLAHOMA DID NOT DEMONSTRATE
COMPLIANCE WITH MEDICARE CONDITIONS OF PARTICIPATION DURING
THE AUDIT PERIOD

CRCO did not demonstrate compliance with the basic or special Medicare CoP during the audit
period. CRCO did not participate in Medicare and was not accredited as a hospital by a




                                                 4
CMS-approved organization at any time during the audit period. 6 CRCO was also never
specially surveyed to demonstrate compliance with the special Medicare CoP.

Of the $6,675,543 in Federal reimbursement claimed for Medicaid inpatient psychiatric service
and DSH payments made to CRCO for claims with dates of service during the audit period, the
State agency improperly claimed $6,209,502 for claims with dates of service outside the
regulatory gap period. The $6,209,502 included Federal reimbursement of $3,788,794 for
improperly claimed service payments and $2,420,708 for improperly claimed DSH payments.
We have set aside for further review by CMS and the State agency $466,041 in Federal
reimbursement for payments made to CRCO for claims with dates of service during the
regulatory gap period. 7 The table below shows Federal reimbursement by payment type.

                              Federal Reimbursement by Payment Type


                        Payment        Improperly
                         Type           Claimed             Set Aside           Total


                       Service           $3,788,794          $224,240         $4,013,034


                       DSH                 2,420,708           241,801         2,662,509


                        Total            $6,209,502          $466,041         $6,675,543


The State agency claimed the $6,675,543 in Federal reimbursement for claims with dates of
service during the audit period because it believed that CRCO had met all requirements to be
eligible for Medicaid inpatient psychiatric service and DSH payments.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $6,209,502 to the Federal Government for its share of Medicaid inpatient
        psychiatric service and DSH payments made to CRCO for claims with dates of service
        outside the regulatory gap period,


6
 CRCO was accredited by the Joint Commission under the Comprehensive Accreditation Manual for Behavioral
Health Care standards, but it was not accredited as a hospital and thus did not have deemed compliance with the
basic Medicare CoP.
7
 Despite CMS’s inadvertent omission of 42 CFR §§ 482.60–482.62 in 72 Fed. Reg. 15198 (Mar. 30, 2007), CMS’s
implementing guidance remained in effect during this period.

                                                        5
   •   work with CMS to determine whether the State agency should refund an additional
       $466,041 to the Federal Government for its share of payments made to CRCO for claims
       with dates of service during the regulatory gap period,

   •   identify and refund the Federal share of any additional payments made to CRCO for
       claims with dates of service after the audit period if neither the State agency nor CRCO
       can demonstrate the hospital’s compliance with Federal requirements for inpatient
       psychiatric hospital services, and

   •   ensure that Federal reimbursement for Medicaid inpatient psychiatric service and DSH
       payments to psychiatric hospitals is claimed only if those hospitals can demonstrate
       compliance with the basic and special Medicare CoP.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with three of our four
recommendations. The State agency agreed with our first recommendation—it will work with
CMS to refund $6,209,502 for the Federal share of Medicaid inpatient psychiatric services and
DSH payments made to CRCO for claims with dates of service outside the regulatory gap period.
The State agency did not concur with our second recommendation that it should be responsible
for refunding payments with dates of service during the regulatory gap period. As to our third
recommendation, the State agency identified an additional $292,811 in DSH payments that were
made after the audit period; it will work with CMS to make an adjustment for this overpayment.
The State agency also agreed with our fourth recommendation—it has implemented procedures
within its provider enrollment division to ensure that all hospitals have the certifications required
for Medicaid reimbursement.

The State agency comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain our second recommendation that the State agency should present its position to and
work with CMS to determine whether it should refund payments made to CRCO for claims with
dates of service during the regulatory gap period.




                                                 6
APPENDIX
APPENDIX: STATE AGENCY COMMENTS
